<html>
<title> - THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM: STRENGTHENING OUR NATIONAL SECURITY</title>
<body><pre>[Senate Hearing 109-65]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-65
 
   THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM: STRENGTHENING OUR 
                           NATIONAL SECURITY

=======================================================================

                             JOINT HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                  and

      SUBCOMMITTEE ON TERRORISM, TECHNOLOGY AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2005

                               __________

                          Serial No. J-109-20

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
22-411                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                      JOHN CORNYN, Texas, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                    James Ho, Majority Chief Counsel
                   Jim Flug, Democratic Chief Counsel
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......    17
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
    prepared statement...........................................    40
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    43
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................    15
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................    13
    prepared statement...........................................    49
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     4
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    55

                               WITNESSES

Hutchinson, Asa, Chair of the Homeland Security Practice, 
  Venable, LLP, former Under Secretary for Border and 
  Transportation Security, Department of Homeland Security, 
  Washington, D.C................................................     6
McCain, Hon. John, a U.S. Senator from the State of Arizona......    14
Reed, Mark K., Border Management Strategies, LLC, Tucson, Arizona    11
Stock, Margaret D., American Immigration Lawyers Association, 
  Associate Professor of Law, Department of Law, U.S. Military 
  Academy, West Point, New York..................................     9

                       SUBMISSIONS FOR THE RECORD

Hutchinson, Asa, Chair of the Homeland Security Practice, 
  Venable, LLP, former Under Secretary for Border and 
  Transportation Security, Department of Homeland Security, 
  Washington, D.C., prepared statement...........................    45
McCain, Hon. John, a U.S. Senator from the State of Arizona, 
  prepared statement.............................................    57
McNary, Gene, Doris Meissner, and James W. Ziglar, Sr., former 
  Commissioners of the Immigration and Naturalization Service, 
  Washington, D.C., joint letter.................................    60
Reed, Mark K., Border Management Strategies, LLC, Tucson, 
  Arizona, prepared statement....................................    62
Stock, Margaret D., American Immigration Lawyers Association, 
  Associate Professor of Law, Department of Law, U.S. Military 
  Academy, West Point, New York, prepared statement..............    66


   THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM: STRENGTHENING OUR 
                           NATIONAL SECURITY

                              ----------                              


                         TUESDAY, MAY 17, 2005

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
Citizenship, and the Subcommittee on Terrorism, Technology 
  and Homeland Security, of the Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 2:40 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. John Cornyn, 
Chairman of the Subcommittee on Immigration, Border Security 
and Citizenship, and Hon. Jon Kyl, Chairman of the Subcommittee 
on Terrorism, Technology and Homeland Security, presiding.
    Present: Senators Cornyn, Kyl, Sessions, Coburn, Kennedy, 
and Feinstein.
    Also Present: Senator McCain.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Chairman Cornyn. This joint hearing of the Senate 
Subcommittee on Immigration, Border Security and Citizenship 
and the Subcommittee on Terrorism, Technology and Homeland 
Security will come to order.
    Let me please first advise our witnesses and everyone 
present who is interested in the hearing that we have a little 
bit of an erratic schedule because of votes, and so we may have 
to get started and then take a recess. So if you will just bear 
with us, we will plow on ahead, and we do want to hear what you 
have to say and be able to ask questions and get your responses 
to those questions on the subject matter of the hearing.
    First let me say how much I appreciate Senator Specter for 
scheduling today's hearing. This is the first in a series of 
hearings to examine the need for comprehensive reform of our 
immigration system. I want to thank Senator Kyl, who chairs the 
Terrorism Subcommittee, for his hard work and leadership on 
these issues as well.
    We announced a few weeks ago that he and I are working to 
identify and develop solutions for the critical problems that 
confront our immigration system. I want to also thank the 
Ranking Member of this Subcommittee, Senator Kennedy, as well 
as Senator Feinstein, the Ranking Member of the Terrorism 
Subcommittee, as well as their respective staffs for working 
with our offices to make this hearing possible.
    Any effort to reform and strengthen enforcement of our 
immigration system, to be successful in the Senate, must be 
bipartisan, and I look forward to working with both of them and 
all of our colleagues to that end.
    Our Nation's immigration and border security system is 
badly broken. It leaves our borders unprotected, threatens our 
national security, and makes a mockery of the rule of law. The 
system, notwithstanding the efforts recently to try to improve 
the situation, has suffered unfortunately from years of 
neglect, and in a post-9/11 world, we cannot tolerate this 
situation any longer.
    National security demands a comprehensive solution to our 
immigration system, and that means both a stronger enforcement 
and reasonable reform of our immigration laws. We must solve 
this problem, and we must solve it now.
    For too long, the debate over immigration has divided 
Americans of good will into two camps: those who are angry and 
frustrated by our failure to enforce the rule of law, and those 
who are angry and frustrated that our immigration laws do not 
reflect reality. But both camps, in my view, are right. This is 
not an either/or proposition. We need stronger enforcement and 
reasonable reform of our immigration laws.
    First, we must recognize that in the past we have simply 
not devoted adequate funds, resources, or manpower to enforce 
our immigration laws and to protect our borders. That must 
change and it will change. No discussion of comprehensive 
immigration reform is possible without a clear commitment to 
and a substantial and dramatic escalation of our efforts to 
enforce the law. That is why these two subcommittees have 
embarked on this series of hearings over the last 2 months 
devoted exclusively to the topic of strengthening enforcement 
of our Nation's immigration system, at the border, between the 
ports of entry, and in the interior of our Nation. These 
hearings have shown that the men and women who operate our 
immigration system work hard and do their best, and we 
appreciate their dedication.
    But our border inspection and security system at the ports 
of entry is still full of holes. Our deployment of manpower and 
the use of technology to secure the border between the ports of 
entry is inadequate. And our deportation process is 
overlitigated and underequipped.
    So we need stronger enforcement, but enforcement alone will 
not, in my view, get the job done. Nor will our immigration 
system be fixed by merely throwing money at the problem. Our 
laws must be reformed as well as enforced.
    Any reform proposal must serve both our national security 
and our national economy. It must be both capable of securing 
our country and compatible with growing our economy. Our 
current broken system provides badly needed sources of labor 
but through illegal channels, posing a substantial and 
unacceptable risk to our national security. Yet simply closing 
our borders would secure our Nation only at the expense of our 
economy. Any comprehensive solution must, in my view, address 
both concerns.
    Our hearing today will examine the national security 
justifications for immigration reforms. Of the more than 10 
million people currently in our country without legal status 
and of the hundreds of thousands who enter each year 
undetected, some fraction of the population may harbor evil 
impulses toward our country. Yet it is a practical 
impossibility to separate the well-meaning from the ill-
intentioned. We must focus our scarce resources on the highest 
risks.
    Law enforcement and border security officials should focus 
their greatest energies on those who wish to do us harm, not 
those who wish only to help themselves and to provide for their 
families by working. We cannot have a population of more than 
10 million people within which terrorists and their supporters 
can easily hide. And we cannot have that population afraid to 
cooperate with law enforcement and anti-terrorism efforts.
    Next week, the Senate will examine the economic 
justifications for immigration reform. Our economy would badly 
suffer if we removed millions of workers from our national 
workforce, just as it would suffer if we eliminated entire 
stocks of natural resources from our national inventory. Our 
economy would be strengthened if all workers would simply come 
out of the shadows, register, pay taxes, and fully participate 
in our economy.
    President Bush has taken the lead and articulated a vision 
for the comprehensive reform of our Nation's immigration laws 
in the interest of our Nation, our national security, our 
national economy, and the rule of law. I am heartened that in 
recent months we have seen growing recognition and consensus 
across the political spectrum that a comprehensive immigration 
solution is long overdue. Along these lines, Senator McCain and 
Senator Kennedy have introduced an immigration reform measure. 
I also understand that Senator Hagel will be introducing his 
proposal in the near future as well. And Senator Kyl and I 
recently announced on the Senate floor that we will introduce 
comprehensive legislation that will strengthen enforcement, 
control our borders, and reform our Nation's immigration laws.
    I look forward to the critical role that these 
Subcommittees will play in the coming congressional debate on 
these various proposals, and as Chairman of this Subcommittee, 
I will work with the disparate voices together to attempt to 
craft a comprehensive consensus solution. This is a complex 
problem, and no one has a monopoly on good ideas.
    I want to reiterate that solving our immigration and border 
security problems should not be an either/or proposition. We 
are a Nation of laws and a Nation of immigrants. We need an 
immigration system that serves our national security and our 
national economy as well as our national commitment to the rule 
of law. We must strengthen enforcement of the law, but we must 
also enact laws that are capable of that strong enforcement.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    With that, I want to turn the floor over to Senator Kyl. 
Senator Kyl, I explained that we are in a series of votes here, 
so we are doing the best we can to move the hearing along. But 
we will, I am sure, have some coming and going, maybe a short 
recess. But I will turn the floor over to Senator Kyl at this 
time, then to Senator Kennedy and Senator Feinstein when they 
arrive, for any introductory remarks they may have.
    Senator Kyl?

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. Thank you very much, Senator Cornyn.
    The two Subcommittees that you see here represented of the 
Judiciary Committee are the two that primarily are concerned 
with the border security issues, the homeland security issues, 
terrorism as it might be associated with it, and generally 
immigration policy. The subject of the hearing today--The Need 
for Comprehensive Immigration Reform: Strengthening Our 
National Security--really could focus entirely on the national 
security requirements of good immigration laws.
    Let me just mention one aspect that has not been fully 
reported on that illustrates the need for that, but I gather 
from the list of witnesses here that there will not be a great 
deal of discussion on that, except perhaps to some extent by 
Asa Hutchinson, but that we will be discussing different 
elements of an immigration policy.
    In my State of Arizona, on the Barry M. Goldwater Gunnery 
Range, there is today a significant degradation of our military 
capability in especially the training missions of the Marine 
Corps and the Air Force because of illegal immigration. That 
range is the premier range for training of pilots--and I might 
mention all of our pilots in Afghanistan and Iraq today trained 
over that range--because of its similarity in terrain to much 
of the Middle East and also because it has wide open spaces for 
these aircraft to do their training missions.
    Despite the Marine Corps' best efforts at controlling the 
western part of that gunnery range, going in to move out 
illegal immigrants who they detect in the area, over 1,100 
hours last year of training time was lost, over 400 missions 
had to be aborted just on that part of the range because of the 
later discovery of illegal immigrants in the vicinity. 
Obviously, nobody wanted to pursue the mission with the 
possibility that someone could be injured.
    That is very expensive when you have got planes gassed and 
loaded on the runways getting ready to perform their mission, 
or in the case of--there is actually film footage of planes 
going down to perform their mission, only to have the camera 
detect people running in the vicinity of where they are going 
to perform their missions, and the planes, of course, have to 
pull up and go around or simply go back to base.
    Our ability to train our pilots that we are putting in 
harm's way in Iraq and Afghanistan is, therefore, being 
adversely impacted by illegal immigration. This is just one of 
the many ways in which illegal immigration imposes burdens upon 
our society. This cannot be allowed to stand, and it is one of 
the reasons why, I believe, that the first effort to move 
toward a broader immigration reform must be to gaining control 
of our borders. And this means a comprehensive effort to fund 
the personnel and technology on the border, putting more 
immigration investigators in the interior, funding their 
efforts as well, providing greater detention capacity, more 
legal staff to represent the United States in administrative 
and judicial immigration proceedings, allocations to 
investigate and prosecute those that have engaged in fraud, 
funding to speed the immigration process of persons who have 
obeyed the law legally and want to enter the country. And I 
think that the experts have testified, and I am very interested 
to hear Mark Reed as an expert testify about this as well.
    The Border Patrol Chief in the Tucson sector where over 
half of the illegal immigration in the country is occurring 
today has said that the border--he said, ``Leave no doubt, the 
border can be controlled. It simply requires the allocation of 
resources to get the job done.'' And he said there is no magic 
bullet. We know what works. We simply need more of that in 
order to get the job done.
    So I reject the notion that the border cannot be 
controlled, and we have simply got to live with the idea of 
inhibitions on military training, the possibility of 
terrorists, the 80,000 or so serious criminals that enter the 
country each year--well, those are the number apprehended. The 
number that enter may be well above that.
    But we can create legal mechanisms to allow the labor in 
this country that we need and cannot fulfill from American 
citizens or other legal residents without doing damage to the 
rule of law. Indeed, we have got to do whatever hiring is done 
within the rule of law so we can benefit the American economy 
without harming U.S. workers, I believe, to provide 
opportunities for guest workers to do work in the United States 
that needs to be done. But I think there will only be an open 
mind to considering such legislation if the American people 
know that we are committed to enforcing the law--and that means 
all of the law--and I think it also means a greater effort on 
the part of the countries from whom these laborers will come to 
work with us in developing the processes for adequately 
documenting the people from their countries who come here to 
work and agreeing to the prompt return to those countries of 
people who have completed their temporary work in the United 
States.
    That is a tall order, but, Mr. Chairman, I agree with you 
that this is something we have got to do before the end of this 
year. We have got to tackle it. There is much that can be done, 
and like you, I am interested in hearing the views of our 
witnesses here today.
    Chairman Cornyn. Thank you, Senator Kyl.
    We are pleased to have a distinguished panel with us today. 
I will introduce the panel, and I will ask each of them to give 
their opening statements.
    Asa Hutchinson joins us today. Mr. Hutchinson is currently 
a partner at the Venable law firm here in Washington, D.C. Of 
course, prior to that, Mr. Hutchinson was confirmed as the 
Under Secretary of Homeland Security in January 2003, shortly 
after the Department was created.
    At the Department of Homeland Security, he was responsible 
for managing and coordinating the overall security of U.S. 
borders and transportation systems, setting immigration 
enforcement policies and priorities, and developing and 
implementing visa security programs.
    Before that, he headed the Drug Enforcement Administration 
and before that was elected to the United States Congress and 
before that served as a U.S. Attorney in Arkansas. He brings a 
wealth of experience to this hearing, and we are thankful for 
his appearance here today.
    Joining Secretary Hutchinson is Professor Margaret Stock. 
Professor Stock is an assistant professor at the United States 
Military Academy at West Point, New York. Before joining the 
faculty there, she was in private practice where she 
specialized in the field of immigration law. She is also a 
member of the American Immigration Lawyers Association and a 
frequent speaker and consultant in the field of constitutional, 
military, national security, and comparative law. We welcome 
you as well, Professor.
    Also joining us today is Mark Reed. Mr. Reed is founder of 
the consulting firm Border Management Strategies. Before 
creating this firm, Mr. Reed retired from the Immigration and 
Naturalization Service after a distinguished 27-year career. 
During his career he had the distinction of serving as the 
regional director in Dallas, Texas, supervising all districts 
and Border Patrol sector operations in 18 States. Before that, 
he held a number, of executive positions, including serving as 
a district director, a San Diego, California, deputy director 
of the El Paso Intelligence Center, and the regional director 
for anti-smuggling at San Pedro, California.
    Welcome to all of you. We are privileged to have such a 
distinguished panel that brings such a broad base of practical 
experience in these issues. We would be happy now to hear your 
statements, and if you would please limit your statements to 5 
minutes, then we will continue in a question-and-answer format 
and hopefully get to all the material.
    With that, let me recognize Asa Hutchinson for his opening 
statement.

  STATEMENT OF ASA HUTCHINSON, CHAIR OF THE HOMELAND SECURITY 
 PRACTICE, VENABLE, LLP, FORMER UNDER SECRETARY FOR BORDER AND 
   TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Hutchinson. Thank you, Mr. Chairman, Senator Kyl. Thank 
you for your opening statements.
    From the standpoint of someone who has worked on border 
issues over the last two decades, I cannot recall any time that 
our Nation has been so focused on border security. I think this 
is the result of the concerns raised by the 9/11 Commission, a 
continuous flow of medical reports on our borders, and, of 
course, the devastating attack on 9/11 itself. In addition, the 
President raising the level of debate by initiating his 
proposal has resulted in a national debate that is timely, that 
is very passionate, but it is also very necessary. The 
decisions we make now will have an impact on our border 
security for years to come.
    You have to start with the proposition that in order to be 
effective in the war against terrorism, our Nation must be able 
to secure its borders. In fact, this proposition is the 
foundation of the Department of Homeland Security, and it is 
also the key founding principle of President Bush's reform 
proposal. Congress has appropriated over $1 billion in 
developing an effective entry-exit system for our foreign 
visitors in the last 3 years. This program is US-VISIT. Upon 
completion, it will be the most effective border system in our 
history guarding against illegal entry at our ports of entry. 
But that investment will be undermined if we do not develop 
complementary strategies for controlling the illegal flow 
across our vast land borders. To do so would be similar to 
posting a watchman on the gangplank of a ship but ignoring 
those coming over the side of the ship.
    The necessary elements to tackle this enormous problem 
effectively are: first of all, increasing the funding of 
technology and security personnel along the border; secondly, 
making it more difficult for illegal aliens to get jobs in this 
country; and, thirdly, providing a workable and practical means 
for migrant workers to have access to job opportunities in this 
country when these jobs cannot be filled otherwise. When and 
only when these security measures are established, then it is 
appropriate to have a conversation on providing a temporary 
legal status to the 8 million plus illegal workers already in 
this country. It is a significant vulnerability to allow such a 
large population to live and work anonymously in our 
communities, with no legal identities or other common 
connections to society. In fact, it is a terrorist's dream. 
Moreover, any legal status should be a temporary work permit 
with a point of return to the alien's home country.
    So we must examine our immigration policy from a 
comprehensive perspective, as this Committee is doing. Without 
a credible enforcement plan along with the funding necessary to 
execute that plan, any temporary workforce initiative is bound 
to send the wrong message.
    Let me elaborate on these elements.
    It is impractical to discuss border security without 
putting an emphasis on emerging technologies. The Department of 
Homeland Security, for example, has emphasized and developed 
the America Shield Initiative that integrates new technologies 
with increased numbers of Border Patrol agents. This initiative 
is the right strategy for border security, and it is built upon 
the Arizona Border Control Initiative that resulted in a 
combination of unmanned aerial vehicles to sophisticated ground 
sensors, resulted in increased apprehension rates of 47 
percent.
    The Department is continuing to build on this successful 
strategy. Presently the 2005 budget provides $64 million for 
the America Shield Initiative, and the war supplemental 
provides additional agents. This is a good start, but in the 
long term it will have to be substantially increased. To make 
this effort successful in controlling our borders, there needs 
to be accelerated funding of the technologies and specific 
funding of an oversight program office within DHS similar to 
the US-VISIT program office that oversees the taxpayer's 
investment. Congress has acted with a sense of urgency in 
funding additional Border Patrol agents, but the technology 
tools for these agents are essential for accomplishing a long-
term, cost-effective strategy.
    The effort at border security must look beyond our borders. 
It does little good to apprehend illegal aliens if there is no 
sufficient detention space, and the detention costs will be 
excessive if there are not judges and attorneys to process the 
cases. And pressure needs to be applied to other nations to 
streamline the repatriation of the aliens. The opportunity for 
jobs in the United States is a great incentive for those who 
consider illegal entry. If the economic opportunity is combined 
with ineffective enforcement and removal, then the magnet for 
illegal entry almost becomes too powerful to resist. A chief 
objective of any border control strategy must be to reduce the 
power of the magnet that draws illegal workers.
    Any immigration reform proposal must include a greater 
investment in workplace enforcement. Employers must be abe to 
verify the legal status of job applicants; they should report 
to the Government the temporary workers they hire and advise 
the Government of any who leave employment. This system would 
allow a closer tracking of individuals in the system and will 
result in better enforcement of immigration laws. There are a 
number of existing systems that serve as a useful model that 
can be implemented in this fashion.
    Another critical tool in border security is expanding the 
use of expedited removal in the circumstances where there are 
no issues of asylum or similar exceptional circumstances. This 
administration should be complimented and recognized for using 
expedited removal in the Tucson and Laredo sectors along the 
Southwest border, but more needs to be done. Budgetary 
constraints have limited the expansion of expedited removal 
along the border.
    Let me conclude by just saying that the following factors 
have to be in place to be successful in reducing illegal entry.
    First of all, the chance of apprehension has to be greater 
than two-thirds. There are indications that we are approaching 
this goal in some areas of the border.
    Secondly, if apprehended, the removal to country of origin 
must be speedy with little chance of release pending a court 
hearing.
    Thirdly, if the alien avoids apprehension and removal, then 
the chance of finding an employer that will accept your illegal 
status must be unlikely.
    And, fourthly, there has to be a meaningful way to legally 
apply for temporary work authorization in the United States and 
for the family to go back and forth during that time of 
employment.
    I have emphasized the need during my testimony of effective 
immigration enforcement, but obviously we have to continue the 
opportunity for immigrants in our society.
    In Arkansas, I was fortunate as a Member of Congress to 
watch the growth of the immigrant population in our State. They 
have added greatly to the culture, economic growth, and values 
of my State. I was able to encourage the former INS to add an 
office in Fort Smith to better serve the immigrant population, 
but also an enforcement office in Fayetteville to more quickly 
respond to the needs of law enforcement. It takes both, and I 
am grateful for this Committee trying to achieve the right 
balance.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hutchinson appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Mr. Hutchinson. We appreciate 
your testimony as well as your service to the country in this 
important area, and we look forward to your continued 
assistance to us as we try to craft the right solutions to the 
problems.
    Professor Stock, we would be glad to hear your opening 
statement.

 STATEMENT OF MARGARET D. STOCK, AMERICAN IMMIGRATION LAWYERS 
  ASSOCIATION, ASSOCIATE PROFESSOR OF LAW, DEPARTMENT OF LAW, 
          U.S. MILITARY ACADEMY, WEST POINT, NEW YORK

    Ms. Stock. Senator Cornyn, my name is Margaret Stock, and 
as you know, I am an associate professor in the Department of 
Law at the United States Military Academy at West Point, New 
York. However, the opinions I am expressing today are my own 
and not the opinions of the Department of the Army, the United 
States Military Academy, or the Department of Defense.
    These hearings are long overdue and much needed. Today's 
hearing could not be more important nor timely. We must 
acknowledge the connection between comprehensive immigration 
reform and our national security, and the fact that our 
national security depends on comprehensively reforming our 
immigration laws. Until now, we have focused on border and 
interior enforcement, but we simply cannot effectively reform 
our immigration laws or enhance our security with an 
enforcement-only approach. Neither can we ensure our security 
by focusing solely on a guest worker program. A guest worker 
approach by itself inadequately addresses the systemic problems 
with our immigration laws, and an enforcement-only approach is 
doomed to failure because it is unworkable and far too 
expensive for too little in return.
    My testimony will emphasize the three things that are 
important and critical for necessary immigration reform. First, 
we need comprehensive immigration reform that addresses the 
situation of people living and working here by allowing them to 
earn the opportunity to obtain permanent status. The estimates 
vary on how many illegal immigrants there are present in the 
United States, but the figures run from 8 to 20 million. The 
vast majority are relatives of U.S. citizens or lawful 
residents or workers holding jobs that Americans do not want. 
Those people need an opportunity to come out of the shadows and 
regularize their status.
    Second, immigration reform must include a break-the-mold 
worker program. Current laws do not meet the needs of our 
economy or workers. A break-the-mold program would allow the 
diminishment of illegal immigration by creating a legal avenue 
for people to enter the U.S. and return, as many wish, to their 
countries, communities, and families.
    Immigration reform, third, must reunify families. Legal 
permanent residents often wait up to 20 years to reunite with 
their family members. Such long separations make no sense in 
our pro-family Nation.
    Neither a simple guest worker program that includes an 
option to adjust nor a work and return program in and of 
themselves can be considered comprehensive reform. Both 
programs ignore the significant problems in the current system, 
namely, those who are residing now inside the United States but 
do not have lawful status, and families who must endure lengthy 
separations. It is unrealistic to assume that significant 
numbers of undocumented people, illegal immigrants, will step 
forward and register for a program with at the end of the day 
would force them to leave their families and their jobs and go 
back to a country for a very long and unknown period of time. A 
program that includes no real possibility for people to earn 
permanent resident status will not generate full participation. 
People will simply choose not to participate or take the risk 
and go back into the shadows if the laws do not change before 
the time period of the program expires.
    It is also unrealistic to assume that families will endure 
separation. To enhance our security, we need immigration laws 
that acknowledge the needs of American business, reunite 
families, and allow us to find out who is living in the United 
States. Both the guest worker program alone, with the 
possibility of adjustment, and a work and return type approach 
fail on those counts. Immigration reform that legalizes hard-
working people already here and that creates a new worker 
program will help the U.S. Government focus resources on 
enhancing security, not on detaining hard-working people who 
are filling vacancies in the U.S. labor market or trying to 
reunite with close family members.
    In addition, an earned adjustment program will encourage 
people to come out of the shadows and be scrutinized by our 
Government. A new worker visa program will create a legal flow 
through which people can enter and leave the United States. The 
legality that results from these initiatives will contribute to 
our national security by helping to focus resources on those 
who mean to do us harm. Such legality also will facilitate 
enforcement efforts. Enforcing a dysfunctional system only has 
led to more dysfunction, not better enforcement.
    As I believe you are aware, a recent survey of likely 
voters in March 2005 showed that 75 percent of likely voters 
favor a proposal that includes the things I have just talked 
about.
    The recently introduced Secure America and Orderly 
Immigration Act is a bipartisan comprehensive reform bill that 
would take a giant step toward reforming our immigration laws 
and enhancing our security.
    Given the complexity of the law in this area, the broken 
status quo, and the fact that whatever reforms are enacted will 
impact on our security, proposals that are introduced in the 
future must reflect the kind of reform I have discussed.
    In closing, I would like to emphasize a couple of things. 
In my written testimony, Senator, I have said there are a 
number of particular issues that should be looked at in 
legislation that shall be proposed. Our focus should be not 
merely on keeping people out--that is the wrong approach--but, 
rather, on letting the right people in. That is the key to our 
national security. If we do not have comprehensive reform, we 
will not be able to enhance our security and our enforcement 
initiatives will fail.
    I want to end completely by focusing on one issue where we 
went the wrong way. The REAL ID Act recently enacted has ruled 
out the possibility of using State Department of Motor Vehicle 
databases as a source of information about the illegal or 
undocumented migrant population in the United States. Thus, 
REAL ID will make it harder to enforce our immigration laws, 
not easier, and I point out that the DMV databases have been 
enormously useful to ICE and other enforcement agencies in 
their efforts to enforce immigration law.
    Comprehensive immigration reform that allows illegal 
immigrants to come out of the shadows and be identified will 
enhance our security and improve the data on those who are 
present in the United States.
    Thank you very much.
    [The prepared statement of Ms. Stock appears as a 
submission for the record.]
    Chairman Cornyn. Thank you very much, Professor Stock.
    Mr. Reed, we will be glad to hear your opening statement.

 STATEMENT OF MARK K. REED, BORDER MANAGEMENT STRATEGIES, LLC, 
                        TUCSON, ARIZONA

    Mr. Reed. Thank you. Thank you for inviting me to share 
some of my experiences over the past 30 years. I am here today 
to embrace the concept that comprehensive immigration 
enforcement strategy must be an essential component of our 
national--
    Chairman Cornyn. Mr. Reed, I cannot tell whether your 
microphone is on. Is the light on?
    Mr. Reed. How about now?
    Chairman Cornyn. Excellent. Thank you.
    Mr. Reed. I am here today to embrace the concept that a 
comprehensive immigration enforcement strategy must be an 
essential component of our national and economic security 
strategies. For the record, I believe that our borders can be 
secured with existing technology and resources. I am not 
talking about using the military. I am talking about 
integrating current capability and initiatives into a 
comprehensive and cohesive plan. Continued efforts to showcase 
a piece of the solution while ignoring other essential 
components of the problem will not work, is inherently 
dishonest, and in today's world, dangerous.
    Over the decades, our border strategies, exacerbated by 
inadequate funding and conflicted policy, now provide great 
cover for anyone to unlawfully enter this country, remain here, 
and do us harm. The border is porous. Alien-smuggling networks 
are well established and prospering. Millions of people are in 
this country illegally with false identities. Identity fraud 
has exploded with the proliferation of document vendors in 
virtually every community. It is easy to enter this country 
unlawfully, gain a false identity, and move openly among us 
without threat of detection. It took us a long time to dig this 
hole, so let me drop back for a moment in time.
    Almost 20 years ago, our first President Bush declared a 
war on drugs. I was present at a high-level strategy meeting 
regarding the urgency of sealing the Mexican border to stop 
drug smuggling by sending the military to the border. When DOD 
stated that they were capable of detecting and interdicting any 
intrusion but could not distinguish between groups of migrants 
from drug smugglers until interdiction, the dialogue became 
difficult. When DOD refused to entertain the idea that they 
should only detain drug smugglers upon interdiction and let 
everybody else go, the meeting was abruptly terminated. The 
safety valve that illegal immigration provided toward the 
stability of Mexico seemed to be a more compelling national 
security priority than drug smuggling.
    This event clearly points to larger binational issues with 
our neighbors in Mexico and Canada. It also contains two other 
important messages about our Nation's historical lack of 
commitment toward border enforcement as part of the solution.
    First, DOD said that they could provide the technology and 
resources to detect any intrusion along the Mexican border. 
Almost two decades later, the Border Patrol still cannot 
``see'' most of the border. Detection is fundamental to any 
border security strategy.
    Second, this call to arms to secure the borders occurred 
shortly after sweeping legislation to legalize millions of 
undocumented workers, coupled with a ``strong'' enforcement 
package that was not funded and not comprehensive.
    Our current border strategy is based on terrain denial 
tactics. This strategy was designed to gain control of one part 
of the border at a time, adjust resources to maintain control, 
and then expand to another segment of the border.
    Purportedly, the Government's original intent was a 
measured march from one end of the Mexican border to the other, 
one step at a time until the entire border was secure. The 
strategy also ha depth. It was supposed to be backed up by 
parallel efforts to attack alien-smuggling corridors and an 
aggressive worksite enforcement effort to attack the magnet of 
jobs. But it turned out to be a piecemeal effort. Resources to 
attack the corridor never materialized, and worksite 
enforcement resources dwindled into virtual non-existence. The 
marching strategy was abandoned. The strategy was modified to 
focus on quality-of-life issues at border communities and 
border safety without resources to address the gaps and flanks 
within and around existing operations. As a result, border 
crossers were forced into the clutches of alien smugglers 
because easy and safe passage through border communities had 
become difficult.
    Alien smugglers, as part of a continuing enterprise, 
criminal enterprise, often pass smuggled aliens over to 
document vendors who are prepared to create false identities 
for the purpose of defeating employer verification procedures, 
which brings us to worksite enforcement, a key to our success. 
The great majority of people illegally entering this country 
are coming for jobs. When we remove the incentive to enter the 
country illegally, the overwhelming number of people crossing 
the border will drop. Enforcement capabilities will soar. 
Pressure on schools and hospitals will be relieved. And 
criminal populations in our jails will diminish.
    But the Nation is conflicted. I refer you back to Operation 
Vanguard that was launched against the meat-packing plants in 
Nebraska a few years ago. The Government demonstrated the 
absolute ability to effectively bar employment of unauthorized 
workers in any sector in the country with minimal resources. 
Using the border strategy model of terrain denial, intent was 
declared to engage one entire industry every year until 
unauthorized employment was barred nationwide. Vanguard was 
shut down after 3,500 people fled the meat-packing industry 
during the first 30 days of the operation.
    Similar accounts of detention and criminal alien 
enforcement vendors that would work but are not allowed to 
work, as well as conceptually valid models like Basic Pilot 
that could work but have never worked, are many and are 
provided in my written statement for the record. They are 
included because those programs are also an essential component 
of a comprehensive strategy.
    Thank you.
    [The prepared statement of Mr. Reed appears as a submission 
for the record.]
    Chairman Cornyn. Thank you, Mr. Reed.
    We have been joined by a number of our colleagues, and as I 
explained, our voting schedule may require some of us to come 
and go. But let me please give an opportunity to Senator 
Kennedy, as the Ranking Member of the Immigration Subcommittee, 
and then to Senator Feinstein, as Ranking Member of the 
Terrorism Subcommittee, to make any opening remarks they would 
like to make.
    I have also invited Senator McCain, who expressed an 
interest in joining us today, to join our Subcommittee panel 
and participate to the extent he has time and an interest in 
doing so, and we are also glad we have Senator Coburn here.
    Senator Kennedy, I will turn it to you.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Well, thank you very much, Mr. Chairman. 
And I thank you for the continuation of the series of hearings 
that you have been holding. They have been very comprehensive, 
looking at a variety of different kinds of challenges that we 
have been facing, the criminality issues which we had in the 
last set of hearings, other issues that are enormously 
important that we have to deal with. And I want to thank all of 
our witnesses, and I look forward to hearing from our 
colleagues.
    I want to welcome back Asa Hutchinson. The last time I saw 
Asa Hutchinson, I revealed that I had been on the no-fly list. 
I had been on it in January. I think our hearing was in April. 
And I got more attention with that little kind of jewel and 
nugget from Massachusetts and around the country. I had more 
letters asking me why I wanted a special privilege, and that 
is, not to be on the list.
    Eventually I got off the no-fly list, but I want you to 
know that we are still working on this issue for a number of 
our constituents. I know that you were involved and interested 
in it, but I came down yesterday from Boston with one of our 
leading researchers out at Mitre that has gotten on the list 
and is working his way through. And I have become sort of an 
expert in working that through. But it is nice to see you. I 
have always enjoyed being on the Human Resource Committee with 
your brother.
    Let me just very quickly say I think for most of us what we 
are hearing time and again is that the system is broken and 
that we have to look at a new way of looking at our border that 
combines the latest in technology. I know Asa Hutchinson was 
interested in the latest technology. Others have spoken to it. 
But we have to try to, I think, come to grips with a system 
that is broken. I don't think there are enough resources in 
this country to put a fence all the way across the Southern 
border, 1,880 miles, or across the 4,200 miles of border with 
Canada or enough troops or enough money to be able to do it. 
And we have spent now $20 billion over the last 10 years in 
terms of constant expansion, and the numbers are still around 
400,000, give or take.
    I do believe that if we try--we have 5,000 legitimate 
individuals that could come under the immigration laws and 
enormous kinds of demands economically. And we are facing 
serious kinds of questions of enforcement.
    The idea that you have the best trained people, the border 
guard out there chasing gardeners and parking lot attendants 
when our borders are open in terms of real national security 
issues, smugglers, drug issues, I think is just a lesson we 
have to learn.
    And I think it is a combination of tough and strict 
enforcement as well as regularizing the immigration provisions 
in ways that are responsive to our economic challenges, 
consistent with our immigration history, and also recognizing 
that we are not going to have an amnesty program, but we are 
going to try and find ways of regularizing our system. And this 
combination I think is at least worth a way of giving a 
different kind of approach, and this is something that Senator 
McCain has been a leader, and others have been enormously 
interested in it. And at some time after maybe Senator 
Feinstein makes her comment--I know Senator McCain--I will 
withhold my questions, but I appreciate the chance to say a 
brief word on it.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Chairman Kyl. [Presiding.] In case Senator Cornyn did not 
mention it, the vote on the final passage of the highway bill 
is taking place right now, and I gather all the members here 
have voted on that.
    I would like to call on Senator McCain, but, Senator 
Feinstein, you are up next. Would you like to go next or defer 
to Senator McCain?
    Senator Feinstein. If he has a time problem, I would be 
happy to defer.
    Chairman Kyl. If you could do that, I would appreciate 
that, and then I would call on you next.

STATEMENT OF HON. JOHN MCCAIN, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman. I thank 
you for the courtesy of my friend from California. I would like 
to be very brief because there are important witnesses before 
this hearing.
    I first of all would like to thank Asa Hutchinson for the 
outstanding job that he performed as the deputy head of 
Homeland Security, but I would also like to associate my 
remarks with Mr. Reed that the system is broken, it has to be 
fixed. And I would like to relate one brief vignette that 
Senator Kyl is very familiar with.
    When then-Director of Homeland Security Tom Ridge came to 
visit our border to see up close our problems, we went to Fort 
Huachuca, the Army base in Arizona, and we saw the UAVs that 
were in operation there. They are a tremendous force 
multiplier. Everybody was praising to the skies how important 
and valuable this was. Much to the astonishment of myself and 
Senator Kyl and everybody else, it was cancelled. It was 
cancelled for some budgetary conflict. And now we may have some 
ability to acquire a decision by next December.
    We have to use high-tech equipment on the border. We must 
use high-tech equipment on the border. We will never have 
enough people if we took the whole United States Army and 
stationed them across the 347-mile border of Arizona and 
Mexico. We need to have force multipliers, and we need high-
tech equipment. And it is broken, and it needs to be fixed.
    I would finally say, Mr. Chairman, I am glad that you and 
Senator Cornyn are heavily involved in this debate. It is 
understandable. But I think every Senator from every State in 
America has got to be concerned with this issue because they 
are not staying on the border or in the Southwest anymore. They 
are going to Massachusetts, they are going to New York. The 
largest increase in population in America in the South today is 
Hispanic people. And they are living in shadows. There are 
labor laws and other laws that are applicable to citizens and 
they are deprived of, and they are being abused as we speak. 
And it is a national security issue. Director Mueller has said 
that more people of ``countries of interest'' are crossing our 
Southern border than ever before.
    But I would also suggest, sir, that we have two other 
problems. Very quickly, one is the 10 to 11 million people who 
are here illegally. That problem has to be addressed and it has 
to be addressed in a humane fashion--in a humane fashion, but 
one that does not mean amnesty nor does it mean reward for 
anybody who came here breaking our laws.
    And, finally, of course, as the President has spoken in 
such articulate fashion, we need to match willing workers with 
willing employers. And I believe Senator Kennedy and I have 
come up with a proposal that it should be, I hope, a basis for 
us to all work together and come up with a reasonable solution.
    And, finally, I suggest that Senator Kennedy be kept on the 
no-fly list as long as possible.
    [Laughter.]
    Senator McCain. Thank you very much.
    [The prepared statement of Senator McCain appears as a 
submission for the record.]
    Chairman Kyl. Except for the last comment, we welcome your 
statement, Senator McCain. Thank you very much.
    Senator Feinstein?

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much. Mr. Chairman, it has 
been my pleasure to work with you and with others on this 
Committee on the terrorism aspect of this. And I certainly 
agree that our system is broken. I also believe we can enforce 
our borders if we have the political will to do so and we 
should.
    According to the 2003 Yearbook of Immigration Statistics, 
in 2000 along the Southwest border there was a record high of 
about a million six detained, yet in fiscal year 2003 that 
dropped to 905,000 people. At the same time, in 2000 the Border 
Patrol processed a record number of persons, a million six, but 
in 2003 processed only 900,000 people.
    Now, could this be that we are seeing a decrease in the 
number of individuals seeking to enter the country legally and 
illegally? I don't think so. Since 2000 we have seen a drop in 
the number of aliens apprehended, while the number of aliens 
seeking to come here has actually increased, where we have put 
more money, more resources, more Border Patrol.
    In fiscal year 2003, the United States admitted a total of 
27.8 million persons in non-immigrant admissions. Those are 
temporary admissions to work here, to attend school, or to 
visit as a tourist. And along our borders, nearly a million 
people, as I just said, were caught attempting to enter the 
country illegally. It is estimated that for every one person 
seeking to enter the United States illegally that is caught, 
three others are not caught. Therefore, the numbers could be as 
high as 3 to 4 million a year.
    And while we know that we have in the United States 10 to 
12 million illegal aliens, during fiscal year 1986 to 2003, the 
Border Patrol accounted for 90 to 97 percent of total 
apprehensions while interior agents accounted for only 3 to 10 
percent of apprehensions. I know there has been a change in 
emphasis. To some extent, I really question that change.
    This number to me also appears rather skewed, and it makes 
me question where our resources are going and why the number of 
apprehensions are going down while the numbers of illegals are 
increasing.
    Now, one of my concerns has been the category of other than 
Mexicans, given the appellation OTMs, in the catch and release 
program. Along the Southwest border, in 2003 there were 30,147 
other than Mexican intrusions. The following year, in 2004, 
there were 44,617. That is a 48-percent increase of those, 
again, caught.
    In February of 2004, during a Judiciary Immigration 
Subcommittee hearing, Under Secretary for Border and 
Transportation Security Asa Hutchinson--who looks strangely 
like that gentleman sitting at the table--responded to 
questions by Senator Grassley regarding the catch and release 
policy for other than Mexicans as follows: His response, and I 
quote--and I think I have done this before, but I want to get 
his answer to this today--was, ``At present, DHS has no 
specific policy regarding OTMs apprehended at the Southern 
border. While OTMs as well as Mexicans are permitted to 
withdraw their applications for admission and can be returned 
voluntarily to their country of nationality, as a practical 
matter this option is not readily available as it is for 
Mexicans whose government will accept them back. Thus, when 
apprehended, OTMs are routinely placed in removal proceedings 
under the Immigration and Nationality Act Section 240. It is 
not practical to detain all non-criminal OTMs during 
immigration proceedings and, thus, most are released.''
    I think that is a real problem, and I want to know if that 
problem still exists today.
    It is also my understanding that a majority of OTMs later 
fail to appear for their immigration proceedings and simply 
disappear into the United States. We have looked at the 
statistics for each country and the so-called countries of 
concern--Syria, Iran, and Iraq. The number of penetrations by 
nationals of these countries throughout our Southwest border 
are rising. Clearly we are deficient in a mechanism to deal 
with these. Thus, it seems to me--and I have said this before, 
but if I were a terrorist, this is how I would look to come to 
the United States.
    So I believe that we have much work ahead of us, and we 
need to address some of these serious issues. I look forward to 
the testimony, Mr. Chairman.
    Chairman Kyl. Thank you very much.
    Senator Coburn?

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Well, thank you, Senator Kyl and Senator 
Cornyn and our Ranking Members, for this Committee hearing. It 
is interesting. This past week I got a letter from a sheriff in 
Sequoyah County, Oklahoma. Oklahoma has a pseudoephedrine law 
where it is all placed behind the counter. Seventy-five percent 
of all the drug labs have been shut down in Oklahoma, yet the 
utilization of methamphetamine now is higher than what it was 
before, and it is higher because it is all coming in from 
Mexico. So it is not just our schools and our hospitals that 
are being impacted. It is our children that are being impacted 
by illegal drugs that are the most addictive, the cheapest, and 
yet we are harboring the very people through our policies that 
allow that process to continue.
    This is the third hearing that the co-Chairmen have had on 
immigration, and we have heard what is not working. What we 
have not heard oftentimes is what do you need to make it work. 
Your testimonies today are excellent, and I will have several 
questions for you. But I think that Senator Feinstein mentioned 
probably one of the most important things. It seems to me that 
the political will has not been there to do what is necessary 
to have a humane immigration policy and at the same time 
enforce our laws, enforce our borders, and protect our 
families. And it is a national security issue. But it may not 
be terrorist in relationship. It may be the undermining of our 
very institutions because they are going to collapse under the 
weight of illegal aliens who are in this country.
    We also had testimony that there are 450,000 convicted 
felons that are running free in this country today because we 
cannot house them in detention beds. We have 19,000 beds at 
$30,000 a year. We need 30,000 or 40,000 more beds just to keep 
up with what the flow is. That problem is only there because we 
are not enforcing our border.
    And so I look forward to your testimony. I thank you for 
having the hearing, Mr. Chairman, and I await the opportunity 
to ask questions.
    Chairman Cornyn. [Presiding.] Well, thank you, Senator 
Coburn.
    We will now start a 5-minute round of questions, going back 
and forth. And, again, we appreciate your presence in this 
important hearing.
    Your opening statements have been very helpful. I want to 
say, Mr. Hutchinson, as I acknowledged your great public 
service at the Department of Homeland Security, I know 
sometimes when you hear the criticisms that everyone has of 
where we are now, it is hard not to take them personally. But I 
assure you that we know it is people like you and others who 
have worked at the Department that have made things much better 
than they would be without your efforts. But we still have a 
long way to go.
    One of the questions I have for you is: Should the U.S. 
Government as a condition of participation in a guest worker 
program require that participating countries agree to certain 
terms and conditions? In other words, we know, for example, 
that the second largest source of annual revenue to Mexico 
comes from remittances of the immigrants who work here in the 
United States and send money home. We also know that they are 
eager for us to address this migration problem, as they call 
it, which we call immigration reform, in a way that does allow 
more of their people to work legally in the United States. But 
given the fact that due to Federal mandate any hospital 
emergency room in America must open up to any person who comes 
in, regardless of ability to pay, and regardless of 
citizenship, that children born of people who are not lawfully 
present in the United States are American citizens and 
obviously entitled to be educated in our schools and the like, 
what kind of commitments should we expect from countries who 
would like to participate in some sort of guest worker or 
temporary worker program with regard to some of these expenses 
for, let's say, medical care the like?
    Mr. Hutchinson. Thank you, Mr. Chairman. And, first of all, 
I think we should use access to the temporary worker program as 
leverage to accomplish our broader objectives and to solicit 
their cooperation in reducing the illegal flow into our 
country.
    I do believe the Government of Mexico needs to take a 
greater responsibility in discouraging a very dangerous trek 
across the border. I think they have taken some important 
steps, but still, the fundamental belief in Mexico seems to be 
that this is a right that they have to cross the border and 
enter the United States, with or without legal permission. And 
that needs to be discouraged. That message needs to go out.
    Secondly, in the Central American countries particularly, 
we need to have greater cooperation in terms of the process of 
removing those that we apprehend coming across our border 
illegally. The paperwork, before we can send them back, they 
have to agree to receive those. They fly back. We have to have 
the paperwork processed. The consular offices have to appear. 
They have got to put more personnel, and we need to use the 
leverage to get that done more quickly.
    Chairman Cornyn. Professor Stock, you mentioned in your 
comments, which I thought were very thoughtful, the problems 
with an enforcement-only approach. Some people would argue that 
we have not tried that yet, which is an overstatement. But 
there is a lot of frustration at our unwillingness, either lack 
of political will or lack of willingness to invest in the 
resources necessary to provide border security and interior 
enforcement. But would you agree that--and I think you said 
this, but let me just ask you to confirm what I think I heard--
it is that we need both? We need both laws that can be enforced 
and the political will to enforce those laws, but then we also 
need to deal with the issues that you addressed, that is, how 
do we get people to identify themselves and come forward and to 
sign up for any program that might be available without dealing 
with their desire not to be deported once they report?
    Ms. Stock. That is correct, Senator. You have summarized my 
testimony very nicely, and I fully agree with everything that 
you have said.
    I do want to emphasize that one of the big problems right 
now is our dysfunctional laws. Most Americans think that 
illegal migrants should go and apply for status and get legal. 
The problem is they cannot. There are millions of people in the 
United States right now who are married to Americans, working 
for American companies, doing things that benefit our economy, 
who cannot get legal. There are even young people who would 
like to join our military services right now who cannot do so 
because they do not have papers. Even though they have lived in 
the United States since they were small children, they are 
physically fit, they speak English perfectly, and they would 
make great members of our armed forces, they cannot join 
because they are not legal. And I have seen an estimate of 
780,000 of those folks floating around in the United States.
    It would be of tremendous benefit to our national security 
if many of these folks could come out of the shadows and 
participate openly in our communities. They would not be 
exploited. We would not be empowering some of the criminal 
gangs who make it a business now to get these folks in and out 
of the country on a regular basis.
    Thank you.
    Chairman Cornyn. Thank you very much.
    We are going to be able to have several rounds, I 
anticipate, so I will turn the floor over to Senator Kennedy.
    Senator Kennedy. On that issue, Professor Stock, I find 
that my office in Boston is just overrun now with trying to 
adjust papers by the recruiting officers that are going through 
a number of the different communities, in Lowell and Lawrence, 
and getting many of these young people in order to meet their 
particular needs. I don't know if you are aware whether this is 
increasingly a phenomenon. Do you know? Are you familiar with 
this sort of effort?
    Ms. Stock. Yes, Senator. I cannot speak--of course, I am 
speaking of my personal opinion only and not on behalf of the 
Department of Defense, but I know that folks who have come to 
the United States from other countries and have adopted this 
country as their own often feel very patriotic and have a sense 
that they need to serve their adopted country, particularly in 
wartime. And many of them are legal and are able to openly go 
and join the military services, and they have signed up, and we 
have had a number of them. Some who are illegal have managed to 
get into the military and have served honorably and have earned 
their citizenship and even died in combat fighting for the 
United States. But there are hundreds of thousands of young 
people who are out there potentially available to serve the 
country that they have lived in since they have been small 
children. They have been educated here. Many of them are 
terrific recruits but for the fact that they don't have papers.
    Senator Kennedy. Let me just get the reaction of the panel 
to this point that the Chairman raised about other countries 
doing their bit. I think this is--we are never going to get 
this right--if we can get it right, it is enormously complex--
unless we are going to get Mexico to do its share, and the 
other countries in Central America. And we have been sort of an 
outlet for Mexico in terms of, I think--this is my personal 
view--trying to deal with some of the social dynamite in terms 
of its society. But we have to expect that they are going to do 
a good deal more.
    Part of the remittances, as I understand, are being used to 
provide some initiatives in terms of development. I don't know 
whether you are familiar with those efforts. Is this is an area 
that can be expanded? Should we expect that this is an area 
that at least we can try--if we are trying to get them to do 
more, what do you suggest that we ask them to do besides just 
probably a tougher border patrols, tougher policing? Since we 
know, as all of you have pointed out, this is the economic 
magnet in terms of employment, what can we get them to do? And 
what suggestions do you have? Professor Stock, do you want to 
take a crack at that?
    Ms. Stock. Sure, I would be happy to, Senator. First, I 
want to emphasize that it is very beneficial to the United 
States that we have Mexican citizens sending remittances home 
because that money helps to stabilize Mexico, which is of 
benefit to us. If the folks are coming here legally, though, we 
also gain the added benefit of having potentially fee income to 
the United States Government, more taxes collected, the 
possibility of people paying for health insurance, which will 
relieve the problems with hospitals have to pay for illegal 
migrant health care. If people are buying health insurance, 
that is less of a problem.
    With regard to cooperation with Mexico, I think there are 
enormous opportunities there. We could have cross-border 
cooperation with law enforcement. We could have cross-border 
cooperation on checking the backgrounds of people who are 
coming in, checking the validity of documentation, identifying 
people.
    Senator Kennedy. Those are not in process now to the extent 
that--
    Ms. Stock. They are in process now, but I suspect that if 
we have a program that benefits Mexico and ourselves that 
allows for the legal and orderly migration of people back and 
forth--and a lot of the folks from Mexico do not want to live 
here permanently. They just want to come here, earn money, go 
back eventually to Michoacan or wherever they came from in 
Mexico, having earned enough money to support themselves back 
in Mexico again. So we need to recognize that there is a 
cyclical flow as well.
    Some of those programs are in place, but I expect they will 
be enforced or they will be stronger and better if the flow is 
legalized.
    Senator Kennedy. I have just two final questions. My time 
is running out. One is for Asa Hutchinson who has supported a 
temporary program, but also supported that at the end of the 
time these individuals would be required to return to their 
home of origin, whether he thinks that that requirement of 
returning home, whether that--these individuals know it, 
whether that would serve as a disincentive. And then I would 
like to ask Mr. Reed, and any of you could comment, in terms of 
the newer kinds of technologies, one of the things we have 
heard from Senator McCain, at least one particular program that 
was cancelled that might have been from a technological point 
of view advantageous. But do you have other suggestions that we 
ought to be thinking about?
    Mr. Hutchinson. First, Senator, I do think that there would 
be an incentive for those living here illegally to get a 
temporary worker status because they don't like the shadowy 
lives that they have. There would be a percent that would have 
no desire to return, and that would be an impediment, and they 
would not pursue that temporary worker permit because of that. 
I hope that that would be a smaller percent. But if you have 8 
million illegals in the country at the present time and a 
temporary worker status would decrease that number by two-
thirds, well, that is a huge security benefit because of that 
effort.
    In reference to technology, there is a lot you look at. You 
mentioned Mexico. They need to invest in better criminal 
databases. They have people arrested in Mexico that we cannot 
verify through our background checks just because they do not 
have the capacity to give us a record of all of the criminals 
that have been convicted in Mexico with any sense of accuracy. 
On the United States side, we have to invest in technology 
through workers that can actually online identify the workers 
here in this country who are here under visas or work permits 
and know when they move or are out of status.
    Senator Kennedy. Mr. Reed, would you make any comments? Do 
you have anything to add?
    Mr. Reed. I think we can ask a lot of Mexico, but I think 
we need to construct our dialogue with them so that it is 
something that they have a vested interest in pursuing. I think 
we can ask Mexico to control their southern border. I think we 
can ask Mexico to work hard to not be a transit country for 
people trying to go from a third country through their country 
to our borders. I think that is something that they could 
embrace. I think that is something that we could help them 
develop. And I think that is something that would help us out 
tremendously in terms of dealing with the real threat of 
terrorists entering the country through Mexico.
    In terms of some of the other dialogue, I think that a lot 
of the things that we want to legislate are not legislative 
issues. With Mexico, the dialogue should be how do we create an 
environment where as people, labor is working temporarily in 
the United States, we are actually developing incentives, not 
necessarily a law or legislation but incentives for people to 
work here and leave their family home and to build their homes 
in Mexico, to invest in Mexico, build streets, schools, and 
hospitals in Mexico while a principal worker may be up here in 
a temporary status.
    I think those are the kinds of things that we should be 
talking to Mexico about, and I think a lot of these things are 
set forth in, I think, a 22-point plan that was set up as a 
binational dialogue quite some time ago.
    But in terms of technology on the border, there is so much 
technology out there that could detect anything coming across. 
I do not think it is a question of--that is there. It is 
available. It is a matter of reaching out and grabbing it and 
putting it there and using it.
    Chairman Cornyn. Senator Coburn?
    Senator Coburn. Thank you, Senator.
    Colonel, I want to thank you for your service at West 
Point. I appreciate that. I have a question. One of your 
statements troubles me, and I am somewhat curious about it. In 
your statement you claim that people who are already living 
here, who work hard and pay taxes, should be allowed the 
opportunity to earn their permanent residence. Why should they 
be allowed to earn the opportunity for permanent residence if 
they came here illegally? And what does that say to the people 
who came here legally who are working hard and paying taxes?
    Ms. Stock. Thank you, Senator. That is a very good 
question.
    I think what has gone on here since 1996, when we attempted 
to reform the immigration laws, is we have actually created a 
worse situation than we expected. We have trapped many people 
here in the United States. It has become apparent now that 
there are hundreds of thousands of folks who are here in the 
United States who cannot leave because if they leave, they will 
never be able to get back in. This is because of the 3-year 
bar, the 10-year bar, the permanent bar.
    It is important to allow folks who have established 
families here, partially as a result of our laws, to have the 
opportunity to stay here in the United States with their 
families.
    Now, Mr. Reed correctly mentioned that there is a cyclical 
flow and that is what we want to encourage, but since 1996 we 
have actually gone the opposite direction. We have encouraged 
people to stay here because of our laws. They have not been 
able to leave to go back home because it has become more 
difficult to come back in, so they are trapped here in the 
United States due to a combination of laws and stronger border 
enforcement.
    Because many of these folks have been here so long, they 
have established families and ties in the community. And while 
it sounds good to enforce the laws, on the one hand, we are 
enforcing laws that make no sense when you are talking about a 
family unit. We say let's enforce the laws, but enforcing the 
law may involve the breadwinner of the family going back to a 
foreign country for 10 years, 20 years, leaving the family that 
is part of the United States community, the American citizen 
spouse and kids, here to apply for welfare. That does not help 
our security.
    It sounds good to enforce, but it makes more sense in the 
long run to let those folks stay here.
    Senator Coburn. But what percentage of people are you 
talking about? Are you talking about somebody that overstays a 
visa, who has a legal visa, and then because they have 
overstayed it they have a penalty not to come back in? Or are 
you talking about people who came here illegally and never had 
a visa in the first place?
    Ms. Stock. Well, we do not have good numbers on that, 
Senator, that is the problem.
    Senator Coburn. But we do know the people who are here on 
visas who have not gone home. We have a list of them. We just 
cannot find them. So which laws are you talking about changing? 
Are you talking about changing the visa laws, the immigration 
laws? What specifically arcane laws are you recommending that 
we change so that we do not entrap people here?
    Ms. Stock. One very specific recommendation I have would be 
to get rid of the 3-year, 10-year and permanent bars which are 
currently trapping the spouses of American citizens and their 
kids here in the country. They cannot leave because if they 
leave they do not get back in, they do not get a waiver to come 
back in. And people know that because they know other people 
who have left and tried to apply for a visa overseas in order 
to fix their status, and they have been told, ``You cannot come 
back in. We are not letting you back in.''
    Senator Coburn. So I want to follow this logic for a 
minute. Because people have broken the law, violated our 
immigration laws, and because they have now established a 
family under that illegal act, we are going to change the laws 
to benefit them rather than to benefit the people who came here 
legally under our laws and followed our laws? Is that what you 
are telling me?
    Ms. Stock. Senator, I think, obviously, the people who have 
managed to follow our laws, I have actually run into very few 
of them. Because our immigration laws are so complicated, I am 
willing to place a bet here that I can find an immigration 
violation in just about any person who is here in the United 
States. We have laws that are so complicated even the 
Department of Homeland Security does not understand them. They 
call them a mystery and a mastery of obfuscation.
    Senator Coburn. I understand that, but I want to get an 
answer to my logical question. What you are proposing is that 
regardless of the laws that we have today, that if somebody 
came here illegally and established a family, and because it is 
important to get them to travel back and forth, we should get 
rid of all the sanctions on those people who are violating--who 
may have even come here legally under a visa. You are proposing 
to me to rationalize those laws? And what laws would you put 
forward that would change that? How would you change that 
specifically and still have enforcement in terms of any 
meaningful enforcement on a visa application to coming into our 
country?
    Ms. Stock. I think what you have to do is have a 
combination of things. You have to have some kind of guest 
worker program that allows the people who want to go back 
cyclically--and there are a lot of them--to do that, without 
establishing ties here so that they can contribute to their 
home community, maybe move back there eventually, buy the 
soccer field in Michoacan.
    However, you have to recognize that we have a substantial 
population of people who have now set down roots. It does not 
make sense to keep them in the shadows. If you say we are 
simply going to enforce, enforce, enforce, those millions of 
people are going to remain in the shadows, they are not going 
to be benefitting our country, they are not going to come 
forward.
    I am not in favor of legalizing everybody in America. I am 
sure there are going to be some people who come forward who 
turn out to have very serious criminal records. One of the 
benefits of having people come forward is they get 
fingerprinted, we get to check them through our system, we get 
to figure out whether they have to pay a fine or not for having 
overstayed a visa. We get to make a judgment call as to whether 
this is somebody who should be allowed to contribute to our 
community or somebody who should be deported. That is a 
potential benefit of a program that allows for legalization.
    I do not think anybody is proposing allowing everybody who 
is here in the United States to suddenly one day get legal. 
They are talking about an orderly process for people to apply, 
to come forward, to show their character, their criminal 
background, get their fingerprints checked, and the Government 
of the United States making a decision whether to let them stay 
or not.
    Senator Coburn. I think we did that in 1986.
    Chairman Cornyn. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    I wanted to ask, Mr. Hutchinson, a couple of questions if I 
might. I recall talking to you on the subject of waiver of 
deportation sometime ago, when you have someone who is here 
illegally, who works hard, who has not broken the law, who has 
American children who are doing very well. And I have submitted 
a few private bills to try to reconcile these people, and 
increasingly, I found in California that the Immigration 
Service was going out to pick them up and deport them. And then 
when I looked at the numbers on the waiver of deportation, I 
think there were 10,000 people that are eligible a year for a 
waiver of deportation, and only 4,000 had been filled.
    Do you have any recollection as to why that was the case? 
Because I was going to expand it. And then I found, haven't 
come to the halfway point of fulfilling the allotment that is 
in the law already. Do you know why that is?
    Mr. Hutchinson. I would assume there would be some criteria 
for obtaining that waiver of deportation, and I know that--and 
I am not saying it would apply in the circumstances that you 
mention, but there are certain requirements that if they have 
criminal offenses, that under the immigration reform bills that 
could not be waived, so that might be a factor in some of the 
individuals that are considered and request waivers.
    Senator Feinstein. Well, maybe one thing we might do, and I 
am going to take a look at it, is look at the criteria and lay 
them out more clearly in law so that everybody knows who is 
eligible for that and who is not. I think that is one thing.
    Last month the Chairman had a dialogue with Mr. Cerda. Mr. 
Cerda--let me see, who is he--
    Mr. Hutchinson. Victor Cerda?
    Senator Feinstein. Mr. Cerda, was the Acting Director of 
Detention and Removal Operations for Immigration and Customs 
Enforcement. And one of the things that came out of that 
dialogue was that there are 465,000 fugitives today from the 
catch and release program, of which 80,000 are criminal 
absconders.
    I was wondering if you can shed any--I think the Chairman 
probably remembers that discussion, I have the transcript--and 
to me this is an unacceptable figure. I guess my question is, 
what do we do about this?
    Mr. Hutchinson. It is totally an unacceptable figure. You 
are absolutely correct. I think it comes down to a couple of 
things. One of them is particularly detention space. Whenever 
you look at apprehensions and the, for example, the war 
supplemental increase, I think it was 500 border patrol agents, 
and I think you all did increase some the detention space as 
well, but the detention space is the key ingredient to avoiding 
the release--you mentioned the OTMs--other than Mexican 
nationals, it is a key to discouraging immigration, someone 
from packing up their bags in El Salvador and coming to the 
United States, first to evaluate what is the chance of getting 
caught? Secondly, if I get caught what is the chance of being 
incarcerated, quickly removed, or am I going to get released in 
the United States? Right now they are evaluating that and 
saying the chances are, I will get released.
    So the detention space is the key to discouraging that 
flow, that person in El Salvador not picking up their bags and 
coming to the United States. That is obviously the reason we 
have over 400,000 absconders here in the United States.
    Senator Feinstein. I think you have made a very good point. 
I think it is very clear that we need more detention space and 
that we really should address it.
    Senator Kennedy. Could the Senator yield just for a quick 
comment?
    Senator Feinstein. Yes, certainly.
    Senator Kennedy. Do you have or does anybody have the 
countries? I mean if we cannot send the criminals back to the 
countries, do we have a list of those countries?
    Senator Feinstein. I have them all right here with the 
numbers and the increases.
    Senator Kennedy. Okay, thank you. The ones that do not 
permit us to repatriate? I do not want to take up your time.
    Senator Feinstein. These are other than Mexicans by country 
as of June 30th of '03, but I cannot comment on repatriation.
    Senator Kennedy. My question is the countries that will not 
accept repatriation. Maybe we have that.
    Mr. Hutchinson. That is very important information though 
because when they do not accept repatriation, we either have to 
release them or we keep them incarcerated which fills up the 
detention space.
    Chairman Cornyn. Mr. Reed, I believe you indicated you had 
a response to Senator Feinstein's question?
    Mr. Reed. Yes. I was chomping at the bit to try to get in 
here. This detention space issue is much larger than just beds. 
I had the misfortune of testifying before another subcommittee 
a few years ago, where the central region had set up a program 
that was going to expedite the removal of a lot of people so 
that we could free up beds. The other misfortune is we decided 
to call it the Hub Site Program, which had some sort of a 
connotation that was not acceptable to the community.
    But at any rate, what we had done was decided that 
detaining people all over the countryside and trying to figure 
out how to get them the counsel and everything else was the 
major factor why people were not getting to hearings and were 
not getting an order. So we decided we would put them all in 
the same place where you had immediate access to counsel, to 
consulates, to transportation, to detention space, everything 
you needed to have a process go real quickly because--and I bet 
it is still ongoing today although I do not know--the number of 
continuances that take place before a person actually gets a 
decision from an administrative judge is extraordinary. And 
during that time the detention space becomes so critical that 
you have to release people in order to take people in the front 
room. So the agency cannot win.
    But the other piece of that which I really found that 
really struck me, and the lesson learned on that, is if we went 
out and picked up all those criminals that we are so concerned 
about right now and sent them home, from an international 
global strategy we end up with a bigger problem. A lot of these 
countries it is not just the people who will not accept people, 
it is do the countries have the ability to absorb that increase 
in the criminal element coming back in to a country that may 
destabilize the country?
    I am certain in my mind that the reason the Hub Site 
Program was shut down is because we were about to send 
thousands of criminals back to countries that were not in a 
position to absorb that impact.
    Senator Feinstein. I think that is a very good point. One 
of the problems for my State, California, is that murderers, 
people who have killed deputy sheriffs, law enforcement 
officers, go over the border to Mexico and Mexico will not 
extradite back to California. My view, very frankly is, Mexico 
also will not cooperate in enforcing the northern border, 
despite all of the problems we may have. It is hard for me to 
feel sympathetic under those conditions.
    It seems to me that Mexico ought to help us enforce the 
northern border, particularly if Mexico wants a more liberal 
acceptance policy of people that cross the border. It is as if 
there is no real understanding for the American dilemma of such 
large numbers coming across the border at a given time, that 
there is not the infrastructure to accommodate them. What has 
worried me, and particularly in California, this is what 
develops a backlash, and this is what develop propositions that 
go on the ballot that pass overwhelmingly. So there has to be 
structure in this, and there has to be numbers that are 
absorbable in everything we do. It seems to me that the lack of 
cooperation of Mexico to achieve that goal is really a 
significant one.
    Chairman Cornyn. Thank you, Senator Feinstein.
    Senator Kyl.
    Chairman Kyl. Thank you, Senator Cornyn.
    At least two of you testified in your written statement--
incidentally, I forgot to include in the record the statement 
that Senator McCain made, if I could make that request.
    Chairman Cornyn. Certainly, without objection.
    Senator Kennedy. Could I just include also Senators Leahy 
and Feingold?
    Chairman Cornyn. Without objection.
    Senator Kennedy. Thank you very much.
    Chairman Kyl. For example, Mr. Reed, you talked about 
worksite enforcement and you harken it back to the enforcement 
initiative called Vanguard, which when implemented became so 
successful that--well, it was too successful and therefore was 
disbanded because it was identifying too many people who were 
employed illegally. Then you noted another program that I 
gather is not working as well, the Basic Pilot for employers, 
part of it dealing with lack of funding, part data integrity 
issues. And then Asa Hutchinson, you also talked about the 
greater investment workplace enforcement as a requirement for a 
new program that employers have to verify the legal status of 
job applicants and so on.
    My question is this. What kind of employer verification 
system would you envisage as both necessary and workable, which 
would provide good documentation and verification of the 
appropriate status for employment that could be easily used by 
employers? And how would it tie into Social Security? Would it 
apply to all Americans as opposed to just different categories 
of temporary workers? And if so, how would you make that work? 
Let me leave it at that for right now. And identify, if you 
could, what you think such kinds of systems would cost and what 
time it would take to put them into effect. That has to do with 
the comment that one of you made about past amnesties not 
working, and I think, Mr. Reed, you made that point.
    I am a little concerned about providing a temporary worker 
program until we have the capability of clearly enforcing the 
program, which would include having in place not only the 
people but also the machinery that might be necessary for that.
    Mr. Reed. A couple of things. Regarding the temporary 
worker program, I think there is all sorts of things that could 
happen beyond the Government infrastructure to make that work. 
Basic Pilot, you should know that besides working on technology 
and trying to help DHS figure out better ways of doing 
business, I am also engaged by the private sector. One of my 
very best and favorite clients is Tyson Foods, who went through 
a very troubling time, and basically brought us in because they 
never wanted to go through it again, and I have worked with 
other employers in similar situations. I now see what the 
employer sees from the other side.
    I was very concerned about Basic Pilot when I was on the 
inside because many times the people, the very people that we 
wanted to go after and prosecute, were enrolled in Basic Pilot. 
So I had a heck of a time trying to sort out how somebody on 
Basic Pilot could be the people that we are going after because 
they have got all the undocumented workers.
    So we launched Vanguard. I do not mean to hark back on 
that, but I think Vanguard shows that with very little money, 
less resources really, you can do a much, much better job. All 
we did with Vanguard was make Basic Pilot work. We looked at 
the document statement were submitted from the I9 information. 
We subpoenaed that information and said, let us take a look at 
it, and then we compared it against databases to figure out if 
there were other Mark Reeds working at other places, and were 
there inconsistencies in that information?
    That is something that Social Security is doing now with no 
match letters. It is a very tepid type of approach, but they 
could do much better. Social Security could tell you very 
quickly as to whether there is two people out there using that 
same Social Security card or not. They do not.
    I can tell you that when I go into Tyson Foods and suggest 
that they may have a problem with unauthorized workers, they do 
a lot of staring at me, asking me how to explain how it is that 
I think that they have got unauthorized workers, when the 
Government, through Basic Pilot, has provided them a document 
stating that that person is authorized to work in the United 
States.
    Somehow Basic Pilot is being beat. I suspect it is because 
it was designed to be beat, but I probably just went over the 
board a little bit with that statement. But it can be fixed and 
it does not take a lot. I had 10 agents in a room who fixed it 
for Vanguard. We are not talking about a major increase in 
resources. We are just talking about making things work that 
should work.
    Mr. Hutchinson. Let me just add, one, I think in reference 
to a temporary worker program, a prerequisite for that is to 
satisfy the American public we are capable of securing our 
border, and it will not be in this fix again. So that is sort 
of a criteria that we have to reach before we move forward on 
that.
    In terms of the Basic Pilot program, and I appreciate Mr. 
Reed's comments, because that is sort of the ground floor 
analysis of it from a policymaking standpoint. One, the problem 
with the Basic Pilot program is that it is voluntary, it is not 
mandatory, and it needs to be expanded so that it could be used 
in problem industry particularly. Secondly, it is dependent 
upon the information that is in the system. If you are going to 
verify Social Security status--and our Social Security 
Commissioner, I have met with her, and really is security 
minded, so I think she is willing to take steps that can 
improve the system.
    The other side is the immigration status. I do not know 
that they are verifying that they are here legally as much as 
there is not any adverse information in the system. But my 
information is that it would be very expensive to expand that 
program because I ask about, you know, how can we have a 
program to expand Basic Pilot into a more mandatory system, and 
the costs were very, very significant, primarily in the 
response capability of the Government for the multiple 
inquiries that come in. Mr. Reed might have different 
information on that.
    Then finally, I just think that you look at our SEVIS 
program that monitors international students that come in, it 
is a very effective program online, technology driven, 
confirming attendance in class. This is the kind of system that 
we have to develop for employers. Whenever you are looking at 
temporary workers or workers with a visa that is coming in, 
obviously not U.S. citizens, but the temporary workers. That is 
the type of system we do not have now, we have got to move 
toward.
    Mr. Reed. I agree very much. In terms of expense I agree 
that it will take a significant amount of money to expand it. I 
would suggest that I believe that most employers would 
contribute towards helping build that system that would work so 
that they could get a response back that they could believe in 
that would reduce their vulnerability. So I do believe the 
Government's got a responsibility to move forward with it. I do 
also believe that private industry would like to partner with 
the Government to help build a system that would work.
    Chairman Cornyn. Senator Sessions, I know you have been 
otherwise occupied and were just able to join us. We have each 
had a chance to ask a couple of rounds, and Senator Feinstein 
has graciously agreed to let us do two questions on our side 
before we go back to the other side of the aisle. If you have 
any questions, go ahead.
    Senator Sessions. I do, and I thank you for having this 
hearing, and I apologize for not being here. You have a good 
panel on a very important subject. I once described this effort 
of being successful, and immigration enforcement is like 
building a bridge that was 8 feet long to get across a 10-foot 
gap, and if we just do a little more and really get our minds 
straight, this thing could begin to work.
    Mr. Reed, Mr. Hutchinson, do you think with existing 
resources there may be a little more--we are really not as far 
away as most people think in making this system work?
    Mr. Hutchinson. I do not think a little more will do it. I 
think it has to be substantially more.
    Senator Sessions. How much substantial in a percentage 
basis maybe?
    Mr. Hutchinson. My judgment is that in terms of the 
personnel you are moving at a fairly substantial rate. I think 
it was 500 new border patrol agents in the War Supplemental. I 
think it is on the technology side that we are creeping along 
too slowly. For example, US VISIT--
    Senator Sessions. Technology is sort of a one-time expense. 
Yes, it will be expensive and it will be somewhat expensive to 
operate, but once you are successful in breaking what you 
suggest is a two-thirds certainty of being apprehended, once 
you get over that, all of a sudden people start complying with 
the law, do they not?
    Mr. Hutchinson. Absolutely. It is a dynamic out there that 
we can reach. I fundamentally agree with you that we can do it. 
It is going to take a significant investment in detention 
space, some court personnel, as well as some of the technology. 
We can get there very quickly with an increased investment.
    Senator Sessions. Mr. Reed, would you comment on that? 
Based on your experience--a witness at the last panel, Mr. 
Chairman, if you remember, I think his last comment was--he had 
been with INS for sometime--he said: I am not sure that our 
people understand what the policy of the Government is. I think 
that was a honest, low-key stated statement of a real problem.
    If the Government had as its policy, clearly to enforce the 
laws and stop the illegal crossings and entries, and to 
therefore move people to the legal system of entry into the 
country, how far are we from getting that done, Mr. Reed? Is 
that impossible?
    Mr. Reed. I have to be careful with terms like ``little'' 
and ``a lot.'' I believe this can be solved, and it can be 
solved on the back of what we already have in place. It is 
going to take some significant investments in some technology. 
But if you compare that to the monies that are actually going 
to be saved in the long run, I regard that as a small 
investment for a great return. I think that part of it is very 
solvable. I think we have off-the-shelf technology that is 
available out there. You have some very smart people in the 
right positions in DHS right now. The Government is poised to 
move forward.
    I am not sure I could say the same for the politics, and 
that is going to take a major, a lot of increase or investment.
    Senator Sessions. One reason we have a political problem, I 
am going to tell you, is that I believe a large percentage of 
our Senators think it is pretty hopeless to create a system, a 
legal entry and exit system that actually works, but it is not 
in my view.
    You mentioned, Mr. Hutchinson, in your four suggestions, 
just wonderful simple suggestions, your first one is that the 
chance of apprehension must be greater than two-thirds. As a 
former prosecutor myself like you were, I think there is a lot 
of truth in that. Would you explain--is that the tipping point 
you are looking for?
    Mr. Hutchinson. I believe it is. And of course, we are 
talking about mass migration. Two-thirds is not enough when you 
are dealing with terrorists, but if you can reduce the mass 
migration you can concentrate on those who pose a risk to our 
country. But if I think about the individual in Costa Rica 
thinking about coming to the United States. What is the risk of 
getting caught? Two-thirds is pretty substantial. If you get 
caught, then what are the chances that you are going to be 
immediately returned back to Costa Rica or sit in custody for 
some time? That is a factor they are going to consider. And 
then even if somehow you, by the slimmest of margins, snuck 
through and got out, what are the chances of an employer hiring 
you because of your illegal status?
    All of those, if they are going to sit there and say 
minimal chance in all of those categories, they are not going 
to come because it is not going to be worth the investment of 
paying $5,000 to a smuggler when the chances are not very good.
    Senator Sessions. How would you evaluate that, Mr. Reed?
    Mr. Reed. I think that is fairly accurate. I am not smart 
enough to understand two-thirds versus three-quarters. I think 
that there should be an absolute certainty of detection. I 
think there should absolutely be consequential deterrence in 
place that discourages people from behaving inappropriately. It 
is fundamental, straightforward law enforcement, and when you 
lose that, you really do not have anything to work with. And we 
have lost it.
    Senator Sessions. I spent a lot of years in law enforcement 
and I absolutely believe that the professionals statements that 
it is the likelihood of getting caught, more than the amount of 
punishment, that deters criminal activity. I have always 
believed that to be an accurate thing. If we could, with a 
strong will and some new technology and new expenditures, 
creating a system that would actually work, I believe you 
could--all of a sudden you would see a drop in the people 
trying to come illegally, an increase in the number of people 
coming legally, and all of a sudden the cost of the system 
could actually begin to go down.
    Anyway, Mr. Chairman, you have given such thoughtful 
leadership to this, I can tell you how much I appreciate it. It 
is not always a task that is filled with glory and 
appreciation, but it is important, and thank you for your 
working at it.
    Chairman Cornyn. Thank you, Senator Sessions.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
want to just have an informal discussion. I have been on this 
Subcommittee now for 12 years, and we go round and round and 
round, and we all know the system is broken, and we do not know 
what to do to fix it. We know that our country is the largest 
immigration magnet in the world. And people want to come here 
from everywhere in large numbers all of the time, year in, year 
out. So we know there has to be some system of order.
    We know that as a country we take more people legally than 
all of the other industrialized countries together do in a 
given year. We have been a very open and--I do not want to use 
the word ``generous'' because I do not think that is the right 
word--but we have been a Nation of immigrants and we have 
always respected newcomers coming to this country. We also know 
that employer sanctions do not really work. The use has 
dropped.
    So it seems to me that there is only one way to go. we have 
to enforce the borders and we have to have a logical system. 
Whether it means taking a look at the quotas for legal 
immigration, making some adjustments in them, because I 
believe, for example, Mexico, people have to wait a very long 
time to come in legally. Maybe we should look at the quota 
system and see if it really meets the need the way it is. I 
think we have to finish the border fence. I think we have to 
staff the border. I think we have to have it technically as 
advanced as possible.
    And I think we have got to have a real disincentive to 
illegal immigration. I think that amnesties create an 
incentive, so that is not the answer as far as I am concerned.
    I also do not believe guest worker programs are the answer 
either, because the people who come to California--and we do 
not have a big H2A program--but people who come for other kinds 
of labor do not go home. They bring their families and they 
stay.
    Let me begin with you, Asa, because you know, now you have 
hindsight, which is much better. How would you change the 
system? Specifically what would you do?
    Mr. Hutchinson. Well, I me an I think first of all, you are 
right that the border enforcement is critical. I also agree in 
terms of having to look at where we are allowing people, our 
quotas, and I think that is a fair debate to have.
    I do think that the employer side is very, very critical to 
reducing the power of that magnet, and it is not just a matter 
of sanctions, although the enforcement side is important, but 
it is also the tools that you give the employers that we have 
talked about today.
    So I went in and I did focus on the border side, did not 
have all of the tools that we needed, moved forward as quickly 
as we can, but I also recognize that that employer part of the 
equation is critical to success overall.
    Senator Feinstein. So you believe we should keep employer 
sanctions but do what? Because they are not working now.
    Mr. Hutchinson. I think you have to give them tools, expand 
the Basic Pilot program, make it more comprehensive so they can 
verify--they have to be able to verify they are not hiring an 
illegal worker. You have to give them the tools to do that. 
Secondly, once you do that, you have to be able to have 
enforcement there.
    Senator Feinstein. Can I understand something? You mean the 
A9 number?
    Mr. Hutchinson. The I9s, yes.
    Senator Feinstein. Excuse me, I9 number. When you say they 
cannot verify it, what exactly do you mean?
    Mr. Hutchinson. Well, the employer is required to take 
certain documents, but unless they are a part of the Basic 
Pilot program, there is not any requirement for them to verify 
the authenticity of those documents, whether it is a valid 
Social Security number or a valid driver's license, or that 
they really have a citizenship in this country. So the 
employers are in compliance--
    Senator Feinstein. Can they not verify by the I9 number?
    Mr. Hutchinson. Well, they could, but there is not any 
requirement to do so, and that is the problem. There is not any 
requirement to do so.
    Senator Feinstein. Then maybe we ought to make it a 
requirement that they take that I9 number on a card and verify 
it, and set up a system to be able to do the verification.
    Mr. Hutchinson. That is the direction that I believe we 
need to go.
    Senator Feinstein. Anybody else on this point?
    Mr. Reed. Yes. I work with a company that is on Basic 
Pilot. What you will see that will happen when you take an 
employer that moves from non-Basic Pilot to Basic Pilot, and 
before they had a workforce that was traditionally immigrants, 
when you go to Basic Pilot all of a sudden everybody turns into 
a United States citizen. The reason that happens is because 
they will go out and buy an identity that will defeat the 
checks that Basic Pilot runs in terms of determining as to 
whether or not those people are actually lawfully entitled to 
work in the United States.
    Senator Feinstein. I am not thinking of a pilot. I am 
thinking if, you know, you have these documents that people 
present. It seems to me there is a way of verifying whether the 
documents are real or not.
    Mr. Reed. I was not clear in my response. This program that 
we are talking about actually requires people to collect 
document and to collect information, and send that information 
to the Government so the Government can make a determination as 
to whether or not that person is authorized to work in the 
United States. Once the Government makes that determination 
they send back a notice to the employer indicating either the 
employment is authorized or there needs to be further inquiry 
made.
    Senator Feinstein. Can you not just do that with a phone 
call? I mean if it is a fraudulent document it is going to have 
a made-up I9 number.
    Mr. Reed. I totally agree. Let me back up a little bit. I 
believe that there is an answer to this. If there is a legal 
worker in every job the incentives to enter this country are 
going to go away. So if there is a way to approach this in 
terms of a comprehensive program, once we put a legal worker in 
every job that is available in the United States, the masses of 
people entering the country is going to dry up, and that makes 
everything else work. All of a sudden all the numbers become 
manageable.
    But the problem that we have right now is we have set up a 
system to check that type of information that does not work.
    Senator Feinstein. It is paper based.
    Mr. Reed. I think it could work. Pardon me?
    Senator Feinstein. If we change it from paper based to 
providing a service where people call--
    Mr. Reed. I think it can be done electronically.
    Senator Feinstein. Or electronically.
    Mr. Reed. I think this can all work, and I do not think--
this is not rocket science. Social Security, I believe if they 
ran more than just a cursory review of the numbers, that they 
would be able to detect if there was some sort of a discrepancy 
with the information that that worker provide to that employer, 
especially if it was based upon fraudulent documents. I think 
that this can happen.
    Senator Feinstein. See, that is way of carrying out the 
employer sanction. In other words, we require that they would 
have to check the documents if they could do it electronically, 
and if they do not do that and they hire somebody that is not 
valid, then you have got--it seems to me you have it right 
there. Am I wrong?
    Mr. Reed. Well, there are all sorts of issues surrounding 
this in terms of--I think the Government needs to accept that 
responsibility. What you say has great merit, and I think it 
would require a little bit more dialogue. It is ironic that the 
employers are afraid of this because there is also a law out 
there that says you can only ask a couple of questions, and if 
you ask one too many questions, there is another element of the 
Government that will come out and hurt you.
    So I think it goes back to the Government needs to make 
this a coherent system. They can do it. I think the employers 
are ready to accept it.
    Senator Feinstein. Very interesting. Thank you.
    Chairman Cornyn. This has been great. I know that I have at 
least one more round, and maybe a couple more if you all will 
hang in there with us.
    I am struck, Professor Stock, the more I look into 
immigration-related issues, at what bad information we have 
about the size of the problem. I think you mentioned between 8 
and 20 million people, and the Congressional Research Service 
told us last year it was about 10, with about 6 million in the 
workforce, but here again it may be just about anybody's guess. 
And then we make blanket statements about the characteristics 
of this immigrant worker population as if they were all the 
same, they all had the same intentions and motives. Some people 
say, well, if you create a temporary worker program, no one 
will come forward, or no one will ever leave once here, all of 
which strike me as overstatements because we just do not know 
and we are making blanket statements without really having good 
data to back it up.
    But one thing that your testimony discusses is something I 
wanted to focus on, and that is circularity of worker flow. You 
indicated earlier that we may have actually done ourselves a 
disservice by erecting stricter border enforcement without 
doing other things, because people who were here, who would 
like to go home are afraid to go back home because they might 
not be able to get back. Based on that statement, it strikes me 
that we perhaps overstate the case when we say that everyone 
wants to stay here.
    My point is that people who are immigrating do so for a 
number of reasons, including economic reasons. People who have 
no hope and no opportunity where they live want to come where 
they can provide for their family. We all understand on a very 
basic human level why that is so, and presumably each of us 
would do the same thing under similar circumstances.
    But do you see the possibility of enacting what I would 
call a work and return program as part of this solution that 
would in fact take advantage of this characteristic of 
circularity of worker flow that would be perhaps one piece of a 
solution to this problem?
    Ms. Stock. Yes, Senator Cornyn, I definitely think that 
part of the solution is to have a program that makes it 
relatively easy for people who would like to come work here 
temporarily, who have an employer who is willing to hire them, 
no American willing to take the job, just as President Bush has 
discussed, that should be part of the program. It cannot be the 
whole program though because there are other pieces of it 
necessary to have a full and comprehensive program, and we have 
not tried this before. That is important to point out.
    In the 1980s, the amnesty that took place in the 1980s, 
this was not a comprehensive reform that tackled the cyclical 
issue, the issues of circularity. It was kind of a one-time 
program with specific data cutoffs, and that does not address 
the problem of the historical flows from Mexico back and forth.
    Chairman Cornyn. Again, looking at immigration-related 
issues, it seems like every time you address one issue you kick 
over a stone, revealing another problem. But when I think about 
our trade policies, I recall that I was struck when I went to 
Guatemala about a year ago, a gentleman I had lunch with, 
arguing in favor of our ratification of the Central American 
Free Trade Agreement. He said, ``We want to export goods and 
services, not people,'' which to me very concisely made the 
case that it is in our best interest to help Central American 
countries, Mexico, and other countries that do not have the 
opportunity that is available here, to create that opportunity 
back home for immigrants, or else what else would we expect but 
they would leave and come here to work.
    So that helped nail the case for me on CAFTA, which we will 
debate here before long.
    But how do we deal with the issue of bad information or 
inadequate information when we say to people who are here, who 
have been here for a while, that they can only work temporarily 
and have to go home, that they are not going to come forward? 
Asa Hutchinson mentioned, well, some people will just so they 
will not have to work in the shadows, so they will self 
identify. It strikes me that there are some single workers who 
do not have the family and community ties that might be willing 
to take advantage of that, and I believe you made the case that 
if we could eliminate a large percentage of people, that would 
make our job a lot easier.
    I wonder how do we deal with that lack of good solid 
information in making general laws that apply to everybody? Mr. 
Hutchinson, do you have a comment or a response to that?
    Mr. Hutchinson. To me the rule probably is let us improve 
the present circumstances, not make it worse. You make it worse 
by not doing anything. You make it better by reducing, one, 
making sure we secure the borders, but secondly, addressing the 
problem of the illegal population here in the United States, 
and if you can decrease that by providing some incentives for 
them to return home, that is a good thing.
    I know that it is hard to get good data, but the 
information that I have, and belief, is that when someone first 
comes here, you know, they have their family ties back. That is 
why they do the going back, they go back for the holidays. It 
has been more difficult because we have tightened the borders, 
but they have that desire to go back. The longer they stay here 
in the United States, the ties get deeper, and so that is where 
you are not going to have them probably come forward, but those 
that have been here fewer years I think it would be likely that 
they would come forward.
    Chairman Cornyn. Mr. Reed, did you have a comment on that?
    Mr. Reed. I think there is a way to deal with this. If the 
Government chooses, they can engage in industry--I do not think 
this should ever be across the board type stuff, it needs to be 
a major balanced approach--but from an enforcement standpoint 
the Government does have the capability to go into an industry 
and bar employment of unauthorized workers. So when it comes 
down to a decision point for the worker as to whether or not 
they want to come forward, their decision is based on, do I 
want to keep my job here, or do I want to leave this job and go 
find a job someplace else, and knowing that in due time they 
are coming to that industry too.
    So the Government--the enforcement has got to be a key in 
terms of putting the right kind of motivation in place. The 
Government can do it. If you want to stay here, come forward. 
If you do not, you had better move on someplace else.
    Chairman Cornyn. Let me just ask one last question and have 
each of you comment briefly on it, and then we will turn to 
Senator Kyl. We have a number of proposals that have already 
been made, including a bill that I filed last year. Senator Kyl 
and I are working on something that we view as comprehensive 
immigration reform.
    I would just like for you to comment on whether you believe 
that comprehensive immigration reform should include these four 
elements. The first would be enhanced border security. The 
second would be improved interior enforcement. The third would 
be employer accountability. And the fourth would be some guest 
worker program that would allow employers to hire people now 
for the jobs that they cannot find American workers to fill, 
and for which there seems to be an endless supply.
    Mr. Hutchinson?
    Mr. Hutchinson. I would agree with those four principles. I 
think the order is important. I do not think you can start with 
a guest worker program and get to border security last. I think 
you have to get to border security and then move through each 
of those, and I agree with those principles.
    Chairman Cornyn. Thank you.
    Professor Stock?
    Ms. Stock. Senator, I think you have to add some kind of 
earned adjustment for the people that are here in the United 
States and something to reunify the families. So I think that 
is the big barrier to getting this problem under control right 
now.
    Chairman Cornyn. Thank you very much.
    Mr. Reed?
    Mr. Reed. I would embrace those principles. I would 
probably rephrase them just a little bit. One is to encourage 
lawful entry, lawful immigration in the country. Second is 
discourage it, and I think we are starting talking about 
packages, but that is definitely a border-oriented type thing. 
And the other thing is put a lawful worker in every job. And I 
think if you do that, I think you end up with a very 
comprehensive, workable and manageable plan.
    Chairman Cornyn. Thank you very much.
    Senator Kyl.
    Chairman Kyl. Thank you, Mr. Chairman.
    There are so many things I want to ask here, but I am going 
to go back to something that I talked about just a little bit 
before to see if I can get a little bit more detail.
    Would all of the panelists agree with the proposition that 
for a guest worker program to work, it is critical that the 
documentation of the guest worker both clearly identify the 
individual properly, and demonstrate the work status of the 
individual, and that it not be counterfeitable easily?
    Mr. Hutchinson. Yes.
    Mr. Reed. Yes.
    Chairman Kyl. So none of the panelists disagree with that 
proposition. Now, one suggestion has been a so-called biometric 
identifier, which can be fingerprints, a digital facial scan, 
an iris scan. Would you all agree that that is a form of 
identification that is not easily counterfeited and might be 
workable in this kind of a situation?
    Mr. Hutchinson. I do, and I think biometrics should be a 
part of the identification requirements.
    Chairman Kyl. Professor Stock?
    Ms. Stock. I think some form of biometric is typically said 
to be a good way to identify anybody.
    Chairman Kyl. Mr. Reed?
    Mr. Reed. I agree with that and I think that that should be 
incorporated into the US VISIT program.
    Chairman Kyl. Okay. With respect to the documentation, it 
could be of course a new Social Security card, it could be some 
other kind of identification. It could be a status card like, 
for example, people are aware of the green card today for legal 
permanent residents. Perhaps there could be a different color 
card for temporary residents or whatever.
    Let me ask you each about the process for verifying the 
breeder documents or the data that goes into this document, and 
how concerned you might be that without valid data in, what you 
are likely to get out is an invalid status, but now with the 
imprimatur of authority because it has been granted as a legal 
document. Could you address that issue?
    Mr. Hutchinson. Of course we are looking at a temporary 
worker type document, so you first start with a foreign worker. 
If they are already here in the United States and getting one 
of these documents, it is still perhaps a little bit easier to 
protect the breeder documents. I am a little bit more 
concerned, and I think the Congress has made good progress in 
REAL ID requirement, some other movements toward more secure 
identification. We can address that here in the United States, 
and I would encourage you to give some flexibility. The 
Department is really trying to coordinate all of these 
registered travelers into some organized system, and they 
probably need some flexibility on that.
    Our greatest concern would be identifying people overseas 
and making sure that we have got the right identification, a 
good background, and that is going to take some pressure on 
some other governments to help us on that.
    Chairman Kyl. Mr. Reed or Professor Stock?
    Ms. Stock. I think you are going to have to cooperate with 
other countries instead of systems, but other countries do have 
systems in place to identify their citizens. In fact, the U.S. 
is one of the worst countries as far as that goes. We do not 
have any national database of U.S. citizens, and we have bad 
problems with breeder documents here in the United States 
because of the different variety of birth certificates and 
things, many of which cannot be verified.
    Other countries though do have national birth registers and 
ways that we could identify their nationals if we have the 
systems in place to cooperate with their governments.
    Chairman Kyl. Mr. Reed, before I call on you. So it would 
be important for us then, if we are focused on people who are 
asking to come forward as having previously entered the country 
illegally, who wish to avail themselves of one of these 
temporary worker programs, that they provide us real 
documentation with supporting documents from their own country 
to provide them the new documents to replace the old ones that 
they were using that were clearly invalid, that would be a 
necessary part of this program then, I gather; is that right?
    Ms. Stock. I think that is true, but I have had good 
success as a private attorney in getting people to admit who 
they really are and come forward with their false documents. 
And when there is a system in place and people know that if 
they admit what they have done in the past, they might be 
forgiven for it, there is a remarkable ability of people to 
come forward and confess to things like that and admit to their 
true identity.
    Chairman Kyl. Which would make it easier then to make this 
applicable to them, right, okay.
    Mr. Reed?
    Mr. Reed. I think the biggest issue here is that once we 
establish their identify, that is their identity forevermore, 
and that is done with biometrics. And there will be all sorts 
of opportunities to take another look at that identity any time 
they encounter social service, employer stuff, whatever, just 
like the rest of us. I think getting documents from other 
countries is going to be difficult. It should definitely be a 
requirement, but as long as we run them through our own 
internal databases, criminal databases and terrorist watch 
lists, and we are convinced that they are not one of them, I 
think we should take whatever identity we get and start from 
there.
    Chairman Kyl. Thank you very much.
    Chairman Cornyn. Senator Coburn.
    Senator Coburn. Thank you.
    Congressman, you have not been called that in a while.
    Mr. Hutchinson. I have not.
    Senator Coburn. It is good to see you. I want to tell you, 
I picked up from you during these conversations an ordered 
sequence of priority, that I think at least people from the 
southern part of this country understand is that you cannot do 
any of these other things unless you are going to have border 
security first, and I am glad to see that.
    Are you aware of any transfer of knowledge between the IRS 
and DHS on the 9 million false W-2s that are filed every year, 
and whether there was any communication between the Internal 
Revenue Service on those and given to Homeland Security? Are 
you aware of any communication between those two departments 
while you were there?
    Mr. Hutchinson. No, I am not. That does not mean that is 
all encompassing knowledge, but I am not aware of that.
    Senator Coburn. I just think, for the record, it is known 
that 8 to 9 million false W-2s are filed by employers every 
year, and there is a penalty for filing a false W-2, which is a 
great source of information on where undocumented workers are. 
Many of those are used two, three and four times. None of them 
have to do with any one individual, there are four or five 
individuals doing it, and it goes back to the false area.
    Mr. Reed, we had Mr. Evans testify alongside the head of 
the Border Patrol I think our last hearing before we had a 
break. And we were talking about technology. I heard you say 
earlier that the technology is out there, that if we could 
implement the technology that is available today, we could 
utilize it, whether it be unmanned vehicles or sensors or 
whatever. Is that a true statement? Is the technology available 
in this country to help secure this border today?
    Mr. Reed. I believe it is. The reason I believe it is is 
because I am working with a team of corporations that are 
trying to solve that problem in the pursuit of the America 
Shield Initiative. I have seen what they have to offer, and I 
have been able to make my own assessment as to what that would 
provide for the Border Patrol specifically in terms of being 
able to do their job.
    Senator Coburn. So it is your testimony before us today 
that that technology has been perfected, maybe not available, 
but is perfected?
    Mr. Reed. I am sure the technology gets better and better 
every day and there is probably something else that somebody 
would want on down the road, but this is just simply a matter 
of detecting a target, assessing the threat, tracking and 
responding to it. That is it. So if you give the Government, 
i.e., give the Border Patrol that capability, the Border Patrol 
will be much more capable today than they have ever been.
    Senator Coburn. Mr. Chairman, I think it is interesting to 
note that when I asked that same question of Mr. Evans, his 
response was opposite of that, that technology was not 
available today. I think that is part of our problem, it is not 
just about resources, it is about whether or not we are going 
to apply the technology that is out there today and do it in a 
sequential fashion.
    That is all the questions I have. I want to thank each of 
you for testifying. I know it is not necessarily fun to come 
here and do it, and then also wait on us on votes. So I 
appreciate you coming, and thank you for your testimony.
    Chairman Cornyn. I too would like to thank all of you for 
being here and hanging in there with us. You can tell by the 
participation of the Subcommittees how important we think this 
subject is and how much we value your testimony, what you have 
to offer, your expertise. So we hope you will allow us to 
continue to stay in communication with you.
    We also will, of course, leave the record open until 5:00 
p.m. next Tuesday on May the 24th for members to submit any 
additional documents into the record or to ask questions in 
writing of any of the witnesses.
    I know, Senator Kyl, you agree with me that this has been a 
very productive panel, and we look forward to working with 
these witnesses more as we go forward.
    Chairman Kyl. Indeed it has, and in fact, I would just like 
to close by indicating there are so many other details that I 
really would like to get into that will help us to formulate 
our approach to this, and all of you have been very, very 
helpful, and I hope we can call on you in the future. And as 
you see us come out with ideas, feel free to comment to us 
about them. We really appreciate your being here today very 
much. Thank you.
    Chairman Cornyn. This hearing is adjourned.
    [Whereupon, at 4:46 p.m., the Joint Subcommittee was 
adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T2411.001
    
    [GRAPHIC] [TIFF OMITTED] T2411.002
    
    [GRAPHIC] [TIFF OMITTED] T2411.003
    
    [GRAPHIC] [TIFF OMITTED] T2411.004
    
    [GRAPHIC] [TIFF OMITTED] T2411.005
    
    [GRAPHIC] [TIFF OMITTED] T2411.006
    
    [GRAPHIC] [TIFF OMITTED] T2411.007
    
    [GRAPHIC] [TIFF OMITTED] T2411.008
    
    [GRAPHIC] [TIFF OMITTED] T2411.009
    
    [GRAPHIC] [TIFF OMITTED] T2411.010
    
    [GRAPHIC] [TIFF OMITTED] T2411.011
    
    [GRAPHIC] [TIFF OMITTED] T2411.012
    
    [GRAPHIC] [TIFF OMITTED] T2411.013
    
    [GRAPHIC] [TIFF OMITTED] T2411.014
    
    [GRAPHIC] [TIFF OMITTED] T2411.015
    
    [GRAPHIC] [TIFF OMITTED] T2411.016
    
    [GRAPHIC] [TIFF OMITTED] T2411.017
    
    [GRAPHIC] [TIFF OMITTED] T2411.018
    
    [GRAPHIC] [TIFF OMITTED] T2411.019
    
    [GRAPHIC] [TIFF OMITTED] T2411.020
    
    [GRAPHIC] [TIFF OMITTED] T2411.037
    
    [GRAPHIC] [TIFF OMITTED] T2411.038
    
    [GRAPHIC] [TIFF OMITTED] T2411.021
    
    [GRAPHIC] [TIFF OMITTED] T2411.022
    
    [GRAPHIC] [TIFF OMITTED] T2411.023
    
    [GRAPHIC] [TIFF OMITTED] T2411.024
    
    [GRAPHIC] [TIFF OMITTED] T2411.025
    
    [GRAPHIC] [TIFF OMITTED] T2411.026
    
    [GRAPHIC] [TIFF OMITTED] T2411.027
    
    [GRAPHIC] [TIFF OMITTED] T2411.028
    
    [GRAPHIC] [TIFF OMITTED] T2411.029
    
    [GRAPHIC] [TIFF OMITTED] T2411.030
    
    [GRAPHIC] [TIFF OMITTED] T2411.031
    
    [GRAPHIC] [TIFF OMITTED] T2411.032
    
    [GRAPHIC] [TIFF OMITTED] T2411.033
    
    [GRAPHIC] [TIFF OMITTED] T2411.034
    
    [GRAPHIC] [TIFF OMITTED] T2411.035
    
    [GRAPHIC] [TIFF OMITTED] T2411.036
    
                                 <all>

</pre></body></html>
